                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

1    Case Number: A05050030                                                                      Page 1 of 1        I
                 We reviewed a series of allegations regarding a university1department's2 administration of
         an NSF award.3 The allegations included: failure of the department chairman4 to provide the
         required form of cost sharing; diversion of grant h d s to the department chairman's pet projects; and
         whistle blower retaliation against the complainant for reporting these allegations to NSF OIG. As
         support for the allegations involving this award, additional allegations were made involving: conflict
         of interests in the department chairman's dealing with a private corp~ration;~ travel fraud by another
         NSF fimded faculty member6in the department; and false statements made to NSF OIG by university
         officials7during the course of our investigation of these allegations.

                 After obtaining financial documentation for the award in question and reviewing them in
         light of NSF's documented expectations for the award, we determined that the university provided
         cost sharing generally in accordance with the terms of the award. However, we identified
         undocumented costs and an improper charge for a student's apartment rental, which resulted in the
         university refunding $4,668.73 to NSF. We also identified the university's failure to provide the
         required annual certifications for cost sharing, and expressed our concerns about document retention.
         We forwarded these concerns as well as general concerns about internal controls to the NSF OIG
         Office of Audit for consideration.

                  There was no evidence to support the allegation that the department chairman had diverted
         grant funds from the award or that he used NSF funds from any award for improper dealings with a
         private corporation he helped to establish overseas. The allegation of travel fraud by the other
          faculty member resulted in a monetary recovery in a previous NSF OIG investigation,' and there was
         no evidence to support any improper actions related to that recovery. There was no evidence to
         .suggest that university officials acted improperly in responding to NSF OIG in this or related matters.
         There was insufficient evidence to support the allegation of whistleblower retaliation under the
         obstruction of justice statutes. Given the time at which NSF OIG received the allegation and the
         historically strained relationship between the complainant and the university's administration in
          other matters, it was not possible to obtain sufficient evidence to support the retaliation allegation.


11               Accordingly, this case is closed.
                                                                                                                    11
